No. 19-58
In The

^xxpremt Olaurl af
XiTRONix Corporation
Petitioner,
V.

KLA-Tencor Corporation, dba KLA-Tencor, Inc.,
Respondent.
CERTIFICATE OF SERVICE
I, Adam G. Unikowsky, hereby certify that I am a member of the Bar of this
Court, and that I have this 5th day of September 2019, caused three copies of the Reply
Brief in Support of Petition for a Writ of Certiorari to be served via overnight mail and
an electronic version of the document to be transmitted via the Court’s electronic filing
system to:
Aaron Gabriel Fountain
DLA Piper LLP (US)
401 Congress Avenue, Ste 2500
Austin, TX 78701
(512) 457-7190
aaron.fountain@us.dlapiper.com
Counsel for Respondent

Adam G. Unikowsky

